Certificate of Service
This certifies that served the opposing party listed below with a copy of the
foregoing for Supreme Court for Writ of Certiorari by depositing the same in the
Unites States Mail with adequate postage, addressed as follows:
NAME/ADDRESS

METHOD OF MAIL

Uniteds States Supreme court
1 First St NE, Washington, DC 20543

USPS certified mail
with return receipts

Attorny Nora F. Sullivan
NC Dept of Justice
attention : Education Section
PO BOX : 629
Raleigh, NC 27602-0629

USPS certified Mail
with return receipts

Repectfully submitted date July 14^ 2020

Wen Chiann Yeh /Petitioner
102 EcKlin Lan, Cary, NC 27519
Phone: 614-584-4291
hollvveh(5)gmail.com

20

